FEDERAL ELECTION COMMISSION

OFFICE OF INSPECTOR GENERAL




      SPECIAL PROJECT

      FEC RETIREMENT




         DECEMBER 2001

        ASSIGNMENT 01-09

                                               Retirement Report

The Office of Inspector General (OIG) has analyzed and summarized data on the
retirement eligibility and projections for Federal Election Commission (FEC) employees
over the next ten years. Studies conducted by government oversight agencies such as the
General Accounting Office (GAO) and the Office of Personnel Management (OPM) have
predicted a potential gloomy retirement scenario for the Federal government. The
potential problem could significantly impact the Federal government’s ability to manage
its tasks and programs due to the possibility of large numbers of employees that may
retire over a relatively short period of time.

The aging workforce and government attrition are the primary factors that contribute to
the potential crisis. The Congressional Budget Office (CBO) reported1 in 1985, about
25% of the Federal workforce was over age 50. As of December 2000, the comparable
figure was almost 40%. Nearly three-quarters of the Federal workforce is over age 40.
In contrast, only about half of all employed workers in the United States are over 40. In
addition, from 1985 through 2000, the Federal government experienced a net decrease of
about 430,000 civilian workers, or 19%.2

The GAO in January 2001 added “strategic human capital management” as a
government-wide high-risk area. The GAO’s high risk reports, started in 1990, are a
means to focus attention on problems that are impeding effective government and have a
greater vulnerability to fraud, waste, abuse, and mismanagement. Twenty-two
government areas comprise the 2001 high-risk list, including information technology
security, the Medicare program, and collection of unpaid taxes, among others.

Strategic human capital management, according to the GAO, is necessary to address
agency human capital challenges, such as succession planning, skills imbalances,
outdated performance management systems, and understaffing.


FEC Retirement Statistics

The retirement statistics compiled and reviewed by the OIG were obtained from the
Personnel Office, Data Systems Development Division, and OPM. The data reviewed
included current, five, seven, and ten year retirement eligibility for FEC staff. It is
important to note eligibility does not necessarily equate to actual retirement. Therefore,
the OIG also obtained from OPM retirement projection figures which represent the
expected future retirements for the FEC staff based on statistical calculations using prior
FEC retirement trends and age profile of the FEC staff. The eligibility and projection
data are summarized in appendices I through V at the end of this report.

1   Changes In Federal Civilian Employment: An Update, May 2001.

2   Statistics are excluding the 170,000 temporary employees hired for the 2000 decennial census.
The retirement data reviewed represents only regular retirement, not early retirement.
Employees are generally able to voluntarily retire (regular retirement) under the Civil
Service Retirement System (CSRS) and the Federal Employees Retirement System
(FERS) provided they meet any of the following scenarios:

(1) Are 55-59 years of age and have 30 or more years of service.
(2) Are 60-61 years of age and have 20 or more years of service.
(3) Are 62 years of age and have 5 or more years of service.

Early retirement is possible only if the OPM specifically designates early-out authority to
an agency who is undergoing a major reduction-in-force (RIF), major reorganization, or
transfer of agency function. Early-out authority includes a separate time schedule for
determining retirement eligibility, one of which is the ability for designated agency staff
to retire at any age, provided the employee has at least 25 years of creditable service.


Several Key FEC Retirement Statistics:

• 	 As of 9/2001, 12 (3.4%) current staff members are eligible for regular retirement; by 2008, a
    cumulative 79 (22.1%) staff will be eligible. [Appendix I]

• 	 22 (31%) of the FEC’s supervisors/managers will have become eligible for retirement by the
    end of 2006; 35 (49%) by the end of 2008. [Appendix II]

• 	 11 (46%) office heads will have become eligible for retirement by the end of 2006; 67% by the
    end of 2008. [Appendix II, III]

• 	 The FEC’s staff is an average 40.3 years of age and the average length of service of the staff is
    11.6 years; the Washington D.C. Federal government averages are 45.3 and 16.5 respectively,
    differences of 5 and 4.9. [Appendix IV]




Conclusion

The OIG concluded the risk associated with losing substantial numbers of employees to
retirement is considerably less for the Commission than it is for the Federal government
as a whole.

A moderate difference exists in the next few years between OPM’s projected FEC
retirements compared to the Federal government as a whole [Appendix IV]. Based on
October 2000 data, OPM predicts by the end of 2006, 44 employees (13.4%) will have
retired from the FEC, compared to 22.8% for the Federal government in the D.C. area.
This moderate difference increases in later years, and by the end of 2010, the OPM
projects 25.6% of the FEC staff will have retired, 38.7% for the Federal government


                                                 2

(D.C.), a 13.1% difference. The workforce characteristics in appendix IV show both a
younger workforce and shorter length of service for the FEC staff when compared to the
Federal government.

FEC division and job series retirement eligibility were reviewed to identify any unusual
retirement patterns. By the end of 2008, 7 (29%) of the 24 FEC staff offices will have
40% or more of their staff eligible for retirement. The FEC’s organizational structure
and size are the primary contributors. [In accordance with the Privacy Act of 1974, as
amended, 5 U.S.C., section 552a, a sentence has been deleted.]

Although the overall staff retirement scenario appears to be reasonable for the FEC, the
FEC’s potential loss of a large number of office heads over the next several years is
noteworthy. Appendices II and III show that 21% of the 24 office heads are currently
eligible for retirement. By the end of calendar year 2006, 46% will have become eligible
for regular retirement; 67% by the end of calendar year 2008. These numbers are
noteworthy due to the FEC’s organizational structure consisting of several small offices
with potentially only a handful of staff to draw upon possessing the institutional
knowledge of the divisions’ operations.

The Office of Management and Budget (OMB) conducted a workforce planning and
restructuring survey of Federal agencies in June of 2001. The FEC acknowledged to the
OMB in June that “the most significant result of possible retirements over the next five
years will be the loss of senior management.” The FEC also reported to the OMB that
budget limitations have precluded the FEC from establishing an executive development
program, a way to possibly address the retirement scenario. An executive development
program can include such things as formal training and mentoring programs geared
towards grooming first-level supervisors for upward mobility within an organization.

According to the GAO, high-performing organizations establish a clear set of
organizational intents—mission, vision, core values, goals and objectives, and
strategies—and then integrate their human capital strategies to support these strategic
and programmatic goals. However, under downsizing, budgetary, and other pressures,
GAO acknowledges that agencies have not consistently taken a strategic, results-
oriented approach to human capital planning.

The strategic planning requirements of the Government Performance and Results Act
(GPRA) provide a useful framework for the FEC to integrate their human capital
strategies with their strategic and programmatic planning—to identify the workforce
size and skills mix needed for mission accomplishment and to create strategies to fill the
gaps.

OMB Circular A-11, Section 220, Preparation and Submission of Annual Performance
Plans, states agency’s annual performance plans “should include a performance goal(s)
covering the human resources strategies, such as recruitment, retention, skill



                                            3

development and training, and appraisals linked to program performance, that help
support agency’s programs.” The FEC’s 2002 and 2003 performance plans, submitted
along with the FEC’s budget requests, did not include a performance goal(s) addressing
human resources strategies. It would be reasonable to not include human resources
goals in a performance plan without the identification of a problem or need. However,
the OIG believes the retirement of senior management over the next several years would
benefit by incorporating human resources goals in future performance plans to ensure
the FEC is successful in meeting its mission.




                                          4

             Agency/Division Staff Currently Eligible for Regular Retirement                                          Appendix I
                                             (As of September, 2001)

                                                                      Total          Number
                                                                     Division       Eligible to            Percent
             Division                                                 Staff           Retire               Eligible

     10      Administrative Division                                    21                0                  0.0%
     20      Audit Division                                             40                1                  2.5%
     30      Information Division                                       13                0                  0.0%
     40      Office of General Counsel                                  117               5                  4.3%
     50      Clearinghouse                                               5                0                  0.0%
     60      Data Systems Development Division                          47                1                  2.1%
     70      Public Disclosure Division                                 13                0                  0.0%
     75      Reports Analysis Division                                  45                1                  2.2%
     80      Office of the Commissioners                                21                0                  0.0%
     85      Office of the Inspector General                             4
     90      Office of the Staff Director                                14               3                 21.4%
     91      Office of Planning and Management                           2
     92      Office of Personnel                                         6                0                  0.0%
     93      Press Office                                                4
     94      Office of Equal Employment Opportunity                      1
     97      Alternative Dispute Resolution                              2
     98      Administrative Review                                       2

             Agency Totals                                              357              12                  3.4%



      Agency/Division Staff Eligible for Regular Retirement Within 5 Years
                                          (As of September, 2001)
                                               Cumulative

                                                                      Total          Number
                                                                     Division       Eligible to            Percent
             Division                                                 Staff           Retire               Eligible

     10      Administrative Division                                     21               1                  4.8%
     20      Audit Division                                              40               6                 15.0%
     30      Information Division                                       13               0                  0.0%
     40      Office of General Counsel                                  117              14                 12.0%
     50      Clearinghouse                                               5               1                  20.0%
     60      Data Systems Development Division                          47               4                  8.5%
     70      Public Disclosure Division                                 13               0                  0.0%
     75      Reports Analysis Division                                  45               1                  2.2%
     80      Office of the Commissioners                                21               3                  14.3%
     85      Office of the Inspector General                             4
     90      Office of the Staff Director                               14                5                 35.7%
     91      Office of Planning and Management                           2
     92      Office of Personnel                                         6                1                 16.7%
     93      Press Office                                                4
     94      Office of Equal Employment Opportunity                      1
     97      Alternative Dispute Resolution                              2
     98      Administrative Review                                       2

             Agency Totals                                              357              41                 11.5%

[Note: In accordance with the Privacy Act of 1974, as amended, 5 U.S.C., section 552a, some information has been deleted. ]
      Agency/Division Staff Eligible for Regular Retirement Within 7 Years                                            Appendix I
                                          (As of September, 2001)
                                             Cumulative

                                                                      Total          Number
                                                                     Division       Eligible to            Percent
             Division                                                 Staff           Retire               Eligible

     10      Administrative Division                                    21               6                  28.6%
     20      Audit Division                                             40               11                 27.5%
     30      Information Division                                       13               0                  0.0%
     40      Office of General Counsel                                  117              22                 18.8%
     50      Clearinghouse                                               5               3                  60.0%
     60      Data Systems Development Division                          47               9                  19.1%
     70      Public Disclosure Division                                 13               2                  15.4%
     75      Reports Analysis Division                                  45               5                  11.1%
     80      Office of the Commissioners                                21                6                 28.6%
     85      Office of the Inspector General                             4
     90      Office of the Staff Director                               14                6                 42.9%
     91      Office of Planning and Management                           2
     92      Office of Personnel                                         6                1                 16.7%
     93      Press Office                                                4
     94      Office of Equal Employment Opportunity                      1
     97      Alternative Dispute Resolution                              2
     98      Administrative Review                                       2

             Agency Totals                                              357              79                 22.1%



      Agency/Division Staff Eligible for Regular Retirement Within 10 Years
                                          (As of September, 2001)
                                             Cumulative

                                                                      Total          Number
                                                                     Division       Eligible to            Percent
             Division                                                 Staff           Retire               Eligible

     10      Administrative Division                                    21               7                  33.3%
     20      Audit Division                                             40               15                 37.5%
     30      Information Division                                       13               1                  7.7%
     40      Office of General Counsel                                  117              31                 26.5%
     50      Clearinghouse                                               5               3                  60.0%
     60      Data Systems Development Division                          47               18                 38.3%
     70      Public Disclosure Division                                 13               3                  23.1%
     75      Reports Analysis Division                                  45               6                  13.3%
     80      Office of the Commissioners                                21               10                 47.6%
     85      Office of the Inspector General                             4
     90      Office of the Staff Director                               14                7                 50.0%
     91      Office of Planning and Management                           2
     92      Office of Personnel                                         6                2                 33.3%
     93      Press Office                                                4
     94      Office of Equal Employment Opportunity                      1
     97      Alternative Dispute Resolution                              2
     98      Administrative Review                                       2

             Agency Totals                                              357              111                31.1%

[Note: In accordance with the Privacy Act of 1974, as amended, 5 U.S.C., section 552a, some information has been deleted. ]
                                                                                        Appendix II




Number and Percentage of Supervisory and Non-Supervisory Personnel
 Becoming Eligible for Regular Retirement for Selected Time Periods

                                       Supervisor/Mgr.             Non-Supervisor
          Current CY 2001                   7 (10 %)                   5 (2 %)
          CYs 2002-2006                    15 (21 %)                  14 (5 %)
          CYs 2007-2008                    13 (18 %)                  25 (9 %)
          CYs 2009-2011                     9 (13 %)                  23 (8 %)
          Post CY 2011                     27 (38 %)                 219 (76 %)
          Total                           71 (100 %)                 286 (100 %)




           Number and Percentage of Staff Office Heads 

  Becoming Eligible for Regular Retirement for Selected Time Periods


          Current CY 2001                     5 (21 %)
          CYs 2002-2006                       6 (25 %)
          CYs 2007-2008                       5 (21 %)
          CYs 2009-2011                       1 (4 %)
          Post CY 2011                        7 (29 %)
          Total                              24 (100 %)


          Staff office head=24 staff offices listed on the FEC organizational chart.

                                                                                                               Appendix III




Appendix III of the report included Federal Election Commission employee names, position titles, and retirement
information. In accordance with the Privacy Act of 1974, as amended, 5 U.S.C., section 552a, this information has
been deleted.
                                                                                                                                    Appendix IV


                                                      Comparative Workforce Statistics

                                                                                              Federal Government
                                        Characteristic                         FEC            (Washington, DC*)


                                        Average Age                            40.3                    45.3

                                        Average Length of Service         11.6 years                 16.5 years

                                        Education:
                                          Bachelors or Higher                  63.2%                   52.5%
                                          Less than Bachelors                   28.6                    44.2
                                          Unspecified                            8.2                     3.3

                                        Supervisory Status:
                                          Supervisor                           19.1%                   12.9%
                                          Non-supervisor                        80.9                    87.1

                                        Average Grade Level                    10.9                    11.3

                                        Gender Profile:
                                         Men                                   43.9%                   49.3%
                                         Women                                  56.1                    50.7

                                        *Statistics as of June 2001 and exclude the U.S. Postal Service. 

                                        Source: Office of Personnel Management, Central Personnel Data File (CPDF). 





                         Projected FEC Regular Retirements vs. Federal Government (DC Area)
                                                                   (Cumulative)
          40.0%


          35.0%


          30.0%


          25.0%
                                                                                                                             FEC
Percent




          20.0%                                                                                                              Federal Government

          15.0%


          10.0%


          5.0%


          0.0%
                  2001    2002   2003        2004         2005          2006           2007   2008         2009   2010
                                                                 Year



                                                                          Source: Projections provided by the U.S. Office of Personnel Management.
                                                                          Statistics as of October 2000 and exclude the U.S. Postal Service.
                                                                                                                                                                                                Appendix V

                                                Number of Current Employees Becoming Eligible for Regular Retirement by Office and Time Period


                          Comm. Admin.
                              Wide       Rev.    Admin.        ADR        Audit      Clearing. Comm.                DSDD       EEO        Info.     OGC     OIG   P&M   PDD     Pers.   Press   RAD      SD
Retirement Years
Current CY 2001                12                    0                       1             0             0            1                     0         5                   0       0               1       3
CYs 2002-2006                  29                    1                       5             1             3            3                     0         9                   0       1               0       2
CYs 2007-2008                  38                    5                       5             2             3            5                     0         8                   2       0               4       1
CYs 2009-2011                  32                    1                       4             0             4            9                     1         9                   1       1               1       1
Post CY 2011                  246                    14                     25             2            11           29                    12         86                 10       4              39       7
Total 9/2001 Staff            357           2        21          2          40             5            21           47          1         13        117     4     2     13       6      4       45      14



                                                Percent of Current Employees Becoming Eligible for Regular Retirement by Office and Time Period


                          Comm. Admin.
                              Wide       Rev.    Admin.        ADR        Audit      Clearing. Comm.                DSDD       EEO        Info.     OGC     OIG   P&M   PDD     Pers.   Press   RAD      SD
Retirement Years
Current CY 2001               3%                   0.0%                   2.5%           0.0%          0.0%         2.1%                  0.0%      4.3%                0.0%    0.0%            2.2%    21.4%
CYs 2002-2006                 8%                   4.8%                   12.5%          20.0%         14.3%        6.4%                  0.0%      7.7%                0.0%    16.7%           0.0%    14.3%
CYs 2007-2008                 11%                 23.8%                   12.5%          40.0%         14.3%        10.6%                 0.0%      6.8%                15.4%    0.0%           8.9%    7.1%
CYs 2009-2011                  9%                  4.8%                   10.0%          0.0%          19.0%        19.1%                 7.7%      7.7%                 7.7%   16.7%           2.2%    7.1%
Post CY 2011                  69%                 66.7%                   62.5%          40.0%         52.4%        61.7%                92.3% 73.5%                    76.9%   66.7%           86.7%   50.0%
Total                         100%                 100%                   100%           100%          100%         100%                 100%       100%                100%    100%            100%    100%


[Note: In accordance with the Privacy Act of 1974, as amended, 5 U.S.C., section 552a, some information has been deleted. ]


Division Key
Adm. Rev. = Administrative Review (98)                      OGC = Office of the General Counsel (40) [PFES, Enforcement, Policy, and Litigation offices]

Admin. = Administrative Division (10)                        OIG = Office of Inspector General (85)

ADR = Alternative Dispute Resolution (97)                   P & M = Office of Planning and Management (91)

Audit = Audit Division (20)                                 PDD = Public Disclosure Division (70)

Clearing. = Clearinghouse (50)                              Pers. = Office of Personnel and Labor Relations (92)

Comm. = Office of the Commissioners (80)                    Press = Press Office (93)

DSDD = Data Systems Development Division (60)               RAD = Reports Analysis Division (75)

EEO = Office of Equal Employment Opportunity (94)           SD = Office of the Staff Director (90)

Info. = Information Division (30)

